Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Disproportionate Share Hospital Payments Made by Pennsylvania to Temple University Hospital for State Fiscal Year 2005-06
July 18, 2008 | Audit A-03-07-00207
Executive Summary
Disproportionate share hospital payments made by Pennsylvania to Temple University Hospital for State fiscal year 2005-06 did not exceed the hospital-specific limits imposed by section 1923(g) of the Social Security Act.  Therefore, we have no recommendations.
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS